CERTIFICATE OF SERVICE
No. 20-472
HOLLYFRONTIER CHEYENNE REFINING, LLC, HOLLYFRONTIER REFINING &
MARKETING, LLC, HOLLYFRONTIER WOODS CROSS REFINING, LLC, & WYNNEWOOD
REFINING CO., LLC,
Petitioners,
v.
RENEWABLE FUELS ASSOCIATION, ET AL.,
Respondents.
I, Ryan C. Morris, do hereby certify that, on this twenty-second day of
December, 2020, I caused one copy and an electronic copy of the Reply Brief of
Petitioners in the foregoing case to be served by first class mail, postage prepaid,
and by email, on the following parties:
MATTHEW W. MORRISON
SHELBY LEIGH DYL
CYNTHIA COOK ROBERTSON
Pillsbury Winthrop Shaw Pittman
1200 Seventeenth Street, N.W.
Washington, D.C. 20036
(202) 663-8000
matthew.morrison@pillsburylaw.com
shelby.dyl@pillsburylaw.com
cynthia.robertson@pillsburylaw.com

JEFFREY B. WALL
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001
(202) 514-2217
SupremeCtBriefs@usdoj.gov

PATRICK JACOBI
U.S. Environmental Protection Agency
999 18th Street, Suite 370
Counsel for Respondents Renewable
Denver, CO 80202
Fuels Association, American Coalition (303) 844-1348
for Ethanol, National Corn Growers
patrick.r.jacobi@usdoj.gov
Association, and National Farmers
Union
Counsel for Respondent United States
Environmental Protection Agency
/s/ Ryan C. Morris
RYAN C. MORRIS
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

